Advisory Report on Region 10's Award and
Administration of Grants to the Western States Air
Resources Council Lake Oswego, Oregon

                            Office of Inspector General
                            Advisory Report




                   Advisory Report on Region 10's Award
                        and Administration of Grants
                to the Western States Air Resources Council
                           Lake Oswego, Oregon
                Report No. WAD 99-000423--1999-S-00189

                           September 30, 1999




             Inspector General Division Conducting the Audit

                          Western Audit Division

                          EPA Regions Covered

                                Region 10

                    Regional Program Office Involved


                          " Office of Air Quality

                     " Office of Management Programs
                                             Table of Contents

   •   SCOPE
   •   BACKGROUND
   •   IMPROVEMENTS ARE NEEDED IN REGION 10'S GRANT AWARD AND/OR
       ADMINISTRATION OF WESTAR GRANTS
   •   1. ASSURING GRANTS INCLUDE ONLY TASKS AUTHORIZED UNDER SECTION 103 OF
       THE CAA

       Non-Training Tasks

       Title V Activities

   •   2. AWARDING GRANTS AND AMENDMENTS THAT EXCLUDE TASKS THAT SHOULD
       HAVE BEEN OBTAINED UNDER CONTRACT PER EPA ORDER 5700.1

       Pollution Prevention Permitting Pilot (P4) Task

       National Emission Standards for Hazardous Air Pollutants (NESHAPS) Inspections Project Task

   •   3. DIRECTLY INFLUENCING MATTERS RELATED TO WESTAR's SUBCONTRACT AWARD
       AND ADMINISTRATION RESPONSIBILITIES
   •   4. ELIMINATING LIKE TASKS WITH OVERLAPPING PERIODS OF PERFORMANCE
   •   5. ELIMINATING PROVISIONS THAT PERMIT BOTH THE DIRECT AND INDIRECT
       CHARGING OF ADMINISTRATIVE ACTIVITIES
   •   ACTION REQUIRED

APPENDIX A - Region 10's Response

DISTRIBUTION
                                 UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                      OFFICE OF INSPECTOR GENERAL FOR AUDITS
                                                  WESTERN DIVISION
                                                75 HAWTHORNE STREET
                                              19TH FLOOR, MAIL CODE I-1
                                            SAN FRANCISCO, CA 94105-3901


                                              September 30, 1999

MEMORANDUM

SUBJECT:     Advisory Report on Region 10's Award and Administration of Grants to the
             Western States Air Resources Council (WESTAR)
             Report No. WAD 99-000423--1999-S-00189

FROM:        Truman R. Beeler
             Divisional Inspector General for Audits
             Western Division

TO:          Charles C. Clarke
             Regional Administrator
             EPA Region 10

In conjunction with our audit of EPA grant costs claimed by the Western States Air Resources Council
(hereafter referred to as the Audit), a number of Regional grant award and administration weaknesses were
identified that caused or contributed to findings cited in the Audit or which were contrary to EPA
policies/procedures or good grants management practices. This advisory report discusses these conditions, along
with our recommendations for actions that Region 10 (the Region) can take to either: (i) correct an existing
condition adversely affecting the WESTAR grants; or (ii) prevent similar conditions from occurring in other
grants.

This report contains information that describes conditions the OIG has identified and corrective actions the OIG
recommends. This report presents the conclusions of the OIG and not necessarily the final EPA position. Final
determinations on matters in this report will be made by EPA managers in accordance with established OIG
report resolutions procedures.

SCOPE

The evidence supporting the information and recommendations in this advisory report were obtained in
accordance with OIG Manual Chapter 118, Special Assignments and the General Accounting Office (GAO)
standard 2.10, Other Activities of an Audit Organization. The information and recommendations in this
advisory report do not represent an audit in accordance with GAO auditing standards. This report is intended
solely for the information and use of the Region and is not intended to be and should not used by anyone other
than the specified parties.

Our evidence gathering occurred during the conduct of the audit of EPA grant costs claimed by WESTAR. It
included evidence obtained at both WESTAR and the Region.
BACKGROUND

WESTAR is a non-profit consortium of fifteen state air agencies and was incorporated in 1988. The Region
awarded three Clean Air Act (CAA), Section 103 grants to WESTAR on May 11, 1993, September 23, 1996,
and September 24, 1996. As amended, WESTAR is scheduled to perform under one or more of the grants
through August 1, 2001.

The EPA awards do not include any requirement for cost sharing by WESTAR and through December 31, 1997
(the period of our audit of WESTAR costs), substantially all activities of WESTAR were related to the activities
of the EPA grants. WESTAR had a staff of five employees at the time of our field work. Because of WESTAR's
small staff, about two-thirds of the $3.2 million of costs claimed under the EPA grants through December 31,
1997 was incurred by third parties and subcontractors.

IMPROVEMENTS ARE NEEDED IN REGION 10'S GRANT AWARD AND/OR ADMINISTRATION
OF WESTAR GRANTS

To reduce financial losses and legal vulnerabilities, improvements needed in the Region's grant award and
administration processes include:

       1. Assuring that grants include only tasks authorized under Section 103 of the CAA;

       2. Awarding grants and amendments that exclude tasks that should have been obtained under contract
       per EPA Order 5700.1;

       3. Avoiding direct influence in matters related to WESTAR's subcontract award and administration
       responsibilities including: (i) developing subcontract work specifications; (ii) directing subcontract
       terms and condition; (iii) performing subcontract technical and financial oversight; and (iv) directing
       subcontractor staff hires and making recommendations for pay raises to subcontractor staff;

       4. Eliminating like tasks with overlapping periods of performance; and

       5. Eliminating grant provisions that permit both the direct and indirect charging of administrative
       activities.

These opportunities for improvement along with our related recommendations are discussed in the balance of
this report.

Summary of the Region's Comments

We issued our draft report to the Regional Administrator on February 26, 1999. The Regional Administrator
responded to the draft report on April 9, 1999. The Region's complete response is included as Appendix A to
this report. In its response to the draft report, the Region included several attachments. These attachments are
not included in Appendix 1, but are available upon request. As a result of continuing discussions with Regional
management and staff throughout the course of our audit of WESTAR, the Region did not request an exit
conference.

The Region disagreed with our conclusions that it: (i) awarded unauthorized tasks under the WESTAR grants;
and (ii) should have obtained some tasks under contract. The Region, however, concurred with all of our
recommendations for improvements as summarized below. Our recommendations are keyed to the each of the
opportunities for improvement:
       1. OIG Recommendation - The Region remove the questionable tasks identified by the OIG, and related
       funding for the remaining project period, from the WESTAR grants.

       Region's Comments - The Regional Administrator commented: " Although we disagree with this
       finding, we concur with the audit recommendation to remove these tasks, and any remaining funding
       associated with them, from the WESTAR grants."

       2. OIG Recommendation - The Region assess any new tasks contemplated for inclusion under the grants
       to WESTAR in accordance with the criteria (for determining the appropriateness of a grant or contract)
       included in EPA Order 5700.1. We also recommend any similar awards be re-evaluated for conformance
       with EPA Order 5700.1.

       Region's Comments - The Regional Administrator commented: "Although Region 10 disagrees with the
       finding that formed the basis for this recommendation, the Region concurs with the recommendation to
       assess any new tasks contemplated for inclusion under the grants to WESTAR in accord with these
       criteria and re-evaluate any similar awards for conformance with this order."

       3. OIG Recommendation - The Region cease involvement of its management and staff in WESTAR's
       subcontract award and administration responsibilities; and remind all project managers that directing or
       influencing a grantee's contractors can be construed as supervision of the contractor and lead to legal
       liabilities such as torts.

       Region's Comments - The Regional Administrator commented: "EPA Region 10 concurs with the
       finding and will implement the recommendation ..."

       4. OIG Recommendation - The Region require its personnel to review the project tasks under the two
       active EPA grants and assign like project tasks to one of the two grants; thus, eliminating like tasks
       being provided for in grants with overlapping periods of performance.

       Region's Comments - The Regional Administrator commented: "EPA Region 10 concurs with this
       finding and will review the grants as recommended."

       5. OIG Recommendation - The Region require WESTAR to develop, for its accounting period
       beginning January 1, 1999, an indirect cost rate in accordance with the provisions of OMB Circular A-
       122.

       Region's Comments - The Regional Administrator commented: "EPA Region 10 concurs with this
       finding ..."

Details supporting our conclusions and recommendations and the Region's rationale for its position are
presented in the balance of this report.

1. ASSURING GRANTS INCLUDE ONLY TASKS AUTHORIZED UNDER SECTION 103 OF THE
CAA

The audit report questioned $685,265 because the tasks associated with these costs, were not, in our opinion,
authorized under Section 103 of the CAA. We concluded that the Region incorrectly used grant funds under
Section 103 authority for: (i) non-training tasks that were the responsibility of EPA or the delegated air
pollution control agencies; or (ii) CAA Title V purposes which cannot be funded through appropriated funds.
Grants to WESTAR cited Section 103 of the CAA as the authority for award. Section 103 provides for grant
awards to nonprofit organizations for the following purposes:

! Grants to conduct, and promote the coordination and acceleration of research, investigations, experiments,
demonstrations, surveys, and studies relating to the causes, effects (including health and welfare effects), extent,
prevention, and control of air pollution (Subsection 103(a)(1).

! Grants to conduct and promote coordination and acceleration of training for individuals relating to the causes,
effects, extent, prevention, and control of air pollution (Subsection 103 (a)(5).

! Grants to establish and maintain research fellowships (Subsection 103 (b)(5).

Most of the tasks provided for in the WESTAR grants meet the training purpose in Subsection 103(a)(5).
However, we identified four tasks that were not for training and which involved activities that were the
responsibility of EPA or the delegated air pollution control agencies. Accordingly, we concluded these tasks
were not authorized under the CAA. We also identified one task that we concluded was for CAA Title V
purposes. In our opinion, Title V purposes cannot be funded through appropriated funds.

Non-Training Tasks. The four tasks are: (i) inspections under the National Emission Standards for Hazardous
Air Pollutants (NESHAP) program in the state of Idaho ($196,356); (ii) inspections under the National
Emission Standards for Hazardous Air Pollutants (NESHAP) program in the state of Alaska ($35,003); (iii)
emissions inventory for State Implementation Plans (SIP) ($63,349), and (iv) development of the Pocatello,
Idaho SIP ($182,697). In the case of the NESHAPS inspections, Idaho and Alaska refused the delegation of
these CAA functions. Accordingly, the Region was responsible for conducting the inspections; and grant funds
should not have been used when EPA is the beneficiary. The two SIP related tasks are questioned because SIP
functions are only authorized under grants to air pollution control agencies under Section 105 of the CAA.
Since WESTAR is not an air pollution control agency, it is not authorized to receive grants for SIP functions.

Title V Activities. The Pollution Prevention Permitting Pilot (P4) task, while involving training, is considered a
prohibited use of appropriated funds. The costs claimed for the P4 task totaled $207,860. The purpose of the P4
task was to train air regulatory staff to incorporate pollution prevention concepts into Title V operating air
emission permits. The P4 task was a joint project with EPA Regions 6 and 10, the State of Oklahoma and City
of Albuquerque Air Quality Division to demonstrate how pollution prevention concepts can be built into the
Title V process.

We consider the use of Section 103 funds for the P4 task a prohibited use of appropriated funds. According to
31 U.S.C. '1301 (a) appropriations are to be applied only to the objects for which the appropriations were made.
CAA funds were not appropriated for Title V purposes. We therefore concluded the Region incorrectly used the
WESTAR grants for the P4 task.

Recommendation

In addition to the recommendations included in our WESTAR audit report relating to disallowing the costs
associated with the above tasks, we recommend that the Region remove these tasks and any remaining funding
associated with them from the WESTAR grants.

The Region's Comments

The Region did not concur that the questioned tasks are not eligible under Section 103 and did not concur that
the costs incurred by WESTAR for these tasks should be disallowed. While the Region acknowledged that the
tasks were not primarily training related, it cited several reasons why it believes the tasks are eligible under
Section 103. First, it believes the broad language of CAA Section 103 (a)(1) authorizing tasks that provide for
"investigations, experiments, demonstrations, surveys and studies" covers the work that was performed under
several of the questioned tasks. Second, even if the tasks were outside the authority of Section 103, the facts,
including WESTAR's excellent performance and its inability to determine eligibility, justify an exception to the
general rule that funds spend on unauthorized grant activities must be recovered. Third, the recommendation in
the Audit to recover costs associated with the questioned tasks is inconsistent with another recent OIG audit
report.

Although the Region disagreed with our conclusions, it did concur with our recommendation to remove these
tasks, and any remaining funding from the WESTAR grants.

In addition to the above reasons for disagreeing that the questioned tasks are not eligible, the Region discussed
each of the questioned tasks.

Idaho Asbestos NESHAP Program. The Region believes this effort qualifies as a demonstration program
under Section 103 (a)(1). Idaho had not accepted delegation of the program, and the Region believed that if a
financial incentive could be demonstrated, Idaho might take the program. The Region advised it wanted to
demonstrate that accepting delegation would not create a financial drain on the State. The demonstration
included showing the program could be run with one FTE for $70,000 a year, and that the income from asbestos
removal notification fees would allow the program to operate as a self-sustaining effort. As a result of the
program, the Region advised that Idaho entered into an agreement to take the first step toward accepting
delegation but later returned the program to EPA.

Alaska Asbestos NESHAP Program. The Region believes this activity also qualifies as a demonstration
program. The Region advised that the program involved a series of studies which were part of a demonstration
that asbestos removal notification fees would cover the cost of an inspector and enforcement actions; should the
state take delegation of the asbestos NESHAP program. The Region further advised that, at least once, an
instructor went to Alaska to train asbestos inspectors.

Emission Inventory Project for SIP. The Region believes that this activity qualifies principally under Section
103 (a)(1) as a "survey, study, or investigation." The Region stated that the purpose of the project was to
develop and improve state agency skills in compiling emission inventories of sources of air pollution. Travel
expenses were paid for state agency personnel so they could meet to examine methods of collecting emission
data in order to develop a more uniform systematic approach to compiling an emission inventory. The Region
also believes that the work involved training because the less-experienced states learned from the more
experienced states.

Pocatello SIP. The Region believes that this activity qualifies under Section 103(a)(1) as a "study" or "survey"
of emission data. The Region advised that this project was an unusually detailed emission inventory of
particulate matter pollutants, covering both state and tribal lands. A final report was prepared which was used to
assist the Shoshone-Bannock Tribes as it was trying to develop regulations that could be used in the future to
develop the Tribal Implementation Plan. According to the Region, it was also useful to Idaho to develop its SIP
to address particulates. Further, the Region advised that WESTAR took this project at the request of the State of
Idaho.

Title V Activities. The Region does not believe that the P4 program is properly characterized as a Title V
activity. The Region supports its view based primarily on it interpretation of EPA Headquarters guidance
addressing the activities that are and are not considered Title V for purposes of determining whether the activity
can be funded by grant. The guidance, includes a matrix that lists "pollution prevention initiatives ... not directly
related to (a specific Title V permit) as grant eligible." The Region also advised that the Title V permit program
cost for the State of Oklahoma and the City of Albuquerque were not defrayed in any way by any program grant
funds. For both pilot projects, participating sources were required to pay all required Title V permit fees. In
addition, permitting authority staff time was funded solely by the permitting authorities through their collected
Title V fees.

OIG Response

The Region's three principal reasons for believing that the questioned tasks are eligible under Section 103 are
addressed below.

1. The broad language of Section 103 (a)(1) authorizes such tasks. The evidence that we reviewed in support of
the task awards do not support the Region's response as to the actual purpose which lead to the award of the
tasks; and now the Region attempts to justify them on other bases. Comments in support of our conclusion are
provided below as we discuss each of the questioned tasks.

2. The questioned tasks are entitled to an exception to the general rule that funds spent on unauthorized grant
activities must be recovered. The Region cited two Comptroller Decisions to support its position regarding
exceptions. In our view, the decision whether EPA has the authority to grant exceptions requires a legal opinion.
We believe that GAO's position in connection with the recovery of funds, as presented in Appropriations Law
Volume II, Chapter 10. H.1, Page 10-83, is clear:

       ...As a general proposition, it has been the view of both GAO and the executive branch that the United
       States has not only a right but a duty to recover amounts owed to it and that this duty exists without the
       need for specific statutory authority... For example, grant funds erroneously awarded to an ineligible
       grantee must be recovered by the agency responsible for the error, including expenditures the grantee
       incurred before receiving notice that the agency's initial determination had been made in error...The
       cited decisions recognize that there might be exceptional circumstances in which full recovery might not
       be required, but exceptions would have to be considered on an individual basis.

3. The recommendation in the Audit report to recover costs associated with the questioned tasks is inconsistent
with another recent OIG audit report. The other recent OIG audit report referenced in the Region's response was
a performance audit; not a financial related audit. The performance audit had objectives focused on Agency
policies, procedures, and practices; and did not address the allowability of costs claimed by a grantee. Because
of these different objectives, we do not agree that there is an inconsistency between the recommendations in the
two reports.

Our response to the Region's comments relating to the individual questioned tasks are as follows:

Idaho Asbestos NESHAP Program. The Region's response asserts the task was for a demonstration because it
believes that if a financial incentive could be demonstrated, Idaho might take the program. The Region further
advised that Idaho did enter an agreement to take the first step toward accepting NESHAP program delegation;
but later returned it to EPA after taking the program for a short period.

The Region's response does not address the fact that Idaho refused to conduct the NESHAP inspections.
Accordingly, it was EPA's responsibility. In our view, it is an unauthorized use of Section 103 grant authority to
obtain tasks from a nonprofit organization that are the responsibility of EPA.

Documents prepared in support of the Region's decision to award this task to WESTAR clearly indicate that the
Region considered contracting for the performance of the NESHAP inspections. The Region rejected
contracting on the bases that: (i) it would have better control if the inspection task was under the WESTAR
grant; and (ii) it had a poor experience in contracting such functions in Alaska. WESTAR performed the
inspection function for Idaho over a period of several years. In our view, this indicates that it was more than a
mere demonstration, it became a practice.
The selection of WESTAR as a vehicle was based upon an evaluation of the alternatives available and
represented the Region's preference to obtain program goals. No mention is made of a demonstration.
According to WESTAR's original (1993) workplan for the State of Idaho NESHAPS, Idaho had refused
delegation of the program, no enforcement was being done in Idaho and, it was not clear how long the situation
would continue.

From conception of the tasks, the Region intended that WESTAR use a specific person for the tasks (an
individual who had been on an IPA assignment from the Idaho Department of Environmental Health to the
EPA). In fact, WESTAR hired this person a subcontractor under its grant to perform the tasks.

There is no evidence that WESTAR ever considered the NESHAPS work as a benefit to its organization. The
1995 grant application from WESTAR clearly states that the Alaska and Idaho NESHAPS inspections "...will
continue to assist Region X." Neither the workplan for 1996 nor 1997 differ substantially from the 1995
workplan.

Alaska Asbestos NESHAP Program. The Region's response regarding the Alaska NESHAP task is essentially
the same as it is for the Idaho NESHAP task. Decision documents prepared by the Region show that the reason
that WESTAR received this task was because Alaska would not accept the delegation. Accordingly, we
concluded that this activity was an EPA responsibility and should have been done by EPA staff or under
contract to EPA. Grants are not an appropriate procurement vehicle when EPA is the beneficiary of the work.

Emission Inventory Project. The Region's response argues that this task qualifies as a "survey, study or
investigation" since the its purpose was to develop and improve state agency skills in compiling emission
inventories of sources of air pollution. The Region also believed that the task involves training because less-
experienced states learn from more experienced states.

Based on our review of documents related to this task, we concluded that this task was related to the Idaho SIP.
Accordingly, it should have been performed by Idaho as part of its air pollution control agency responsibilities
under Section 105 of the CAA.

Grant documents relating to this task contradict the Region's position on the principle purpose for this task. The
Memorandum of Understanding between the Idaho Department of Environmental Quality (IDEQ), selected
Indian tribes, WESTAR and the Region states; a) "...IDEQ has first-hand expertise of the nature of emissions,
b) WESTAR is administering the project for Idaho and , c) the project was to design and implement emission
inventories to support state implementation plans." In our view, this is a clear indication that the principal
purpose of this task was data collection in support of developing the SIP in the State of Idaho. Also, it is noted
that grant documents relating to this task do not make any mention of any training function or activity.

Pocatello SIP. The Region's response advises that this task qualifies under Section 103(a)(1) as a "study" or
"survey" of emission data. In discussing the task, the Region states that the effort was directed toward SIP
activities. Accordingly, as stated regarding our position on the emissions inventory project involving SIP
activities, we believe that SIP activities are the responsibility of an air pollution control agency; or if refused by
such an agency, EPA's responsibility.

In the case of the Pocatello SIP, it is also noted that WESTAR had no involvement with the task other than to
pay its subcontractor. The Region worked directly with the subcontractor.

Title V Activities. The Region responded that it does not believe the P4 task is properly characterized as a Title
V activity. The Region attempts to support its view based primarily on its interpretation of EPA Headquarters
guidance addressing the activities that are and are not considered Title V for purposes of determining whether
the activity can be funded by grant. The Region relies on the guidance in the matrix that lists "pollution
prevention initiatives ... not directly related to (a specific Title V permit) as grant eligible."
We disagree with the Region's interpretation of EPA Policy regarding Title V activities.. Our interpretation of
EPA Policy is that it prohibits the use of appropriated funds, either directly or indirectly, for Title V purposes.
We agree that issuing permits was not the primary intent of the task rather training Title V permit writers was
the primary intention. However, we interpret the EPA Policy as prohibiting using appropriated funds for such
training. Our position is supported by the matrix included in the EPA Headquarters guidance. The matrix states
that training of staff for Title V implementation is a Title V Permit Fee Activity which is expected to be covered
by Title V fees.

2. AWARDING GRANTS AND AMENDMENTS THAT EXCLUDE TASKS THAT SHOULD HAVE
BEEN OBTAINED UNDER CONTRACT PER EPA ORDER 5700.1

EPA Order 5700.1 (the Order) provides EPA's policy for the appropriate selection of award instruments (i.e.
grants, cooperative agreements or contracts). The Order implements The Federal Grant and Cooperative
Agreement Act of 1977 (FGCAA) which Congress wrote to eliminate Federal agencies attempts to circumvent
procurement rules by awarding grants that would be used to accomplish directed procurements. Thus, the Order
is intended to prevent the use of grants for the acquisition of goods and services for EPA's needs.

Specifically, several provisions of the Order are relevant to conditions that we found at WESTAR:

! EPA may use an assistance agreement with an eligible intermediary to provide assistance to the ultimate
beneficiary, who must also be eligible. The support or stimulation need not be of benefit only to the
intermediary. On the other hand, if the intermediary is not itself an eligible recipient, or if the intermediary is
effectively serving as a contractor to EPA, then EPA should normally use a procurement contract to obtain the
services of the intermediary in assisting eligible recipients.

! Use a contract if the principal purpose is to acquire property or services for the direct benefit or use of the
federal government.

! The decision to use a contract or an assistance agreement must be based solely on the principal purpose of the
relationship.

! The principal purpose test to determine whether the government is the direct beneficiary or user of the activity
is: a) if EPA provides the specifications; or b) is having the project completed based on its own identified needs;
or c) will directly use the information or, d) will incorporate or rely on information developed by the project in
writing guidance or standards then in most cases a contract relationship exist.

! Awards that are intended to acquire goods and services cannot be an assistance agreement simply because it
may be construed to provide public support or stimulation, regardless of the benefit.

! It is necessary to find that the project is being performed by the recipient for its own purposes which EPA is
merely supporting.

! EPA should not direct the recipient in conducting activities for its benefit or in providing services to EPA.
Mere logistical support to EPA should be performed under contract.

In reviewing selected tasks provided for by the Region under the grants to WESTAR, instances were noted
where the tasks appeared inappropriate under the Order. Illustrations supporting this conclusion are as follows:

Pollution Prevention Permitting Pilot (P4) Task. This task was added to grant no. X000679-03 through
amendment no. 9 dated September 19, 1995 in the amount of $150,000. The grant amendment stated: "Added
Project 96/96-14 Pollution Prevention Permitting Pilot Project - $150,000." The project was described by the
Region's project manager as a P4 for the CAA, Title V. The P4 task was continued as a task under grant no.
X990602-01 when it was awarded on September 23, 1996. The P4 task was performed for WESTAR by a
subcontractor, Ross and Associates. According to WESTAR's accounting records, $207,860 has been spent for
the P4 task through December 31, 1997.

The Region's project manager for this WESTAR task indicated that the P4 task was funded under the EPA
grants because the Region did not have contract funds for such activity. The task was described by the Region's
project manager as a P4 for Title V and for the states benefit to implement Title V. He indicated that, if the task
had been an EPA Headquarters effort, the P4 would have been a contract. It is noted that the Regional project
manager was previously the work assignment manager for a prior P4 contract with EPA Headquarter's Office of
Air and Radiation and Office of Air Quality Planning and Standards. Ross and Associates was also a
subcontractor under the Headquarters contract.

This task met many elements of EPA Order 5700.1 indicating that a contract was the appropriate instrument:

! EPA provided the specifications for WESTAR's pilot P4 task;

! EPA will use the information obtained to assist the states in implementing the Title V program.

! EPA is involved in directing the work of the subcontractor.

! There was little evidence of WESTAR's participation in the focus or direction of the task.

The P4 task was modified to include a phase involving the State of Oklahoma. Since WESTAR's membership
does not include Oklahoma, this is another indicator that the project is not for the benefit of WESTAR.

Additionally, the task's benefit to WESTAR was questioned by its executive director at the time of the
amendment adding the P4 task to the grant.

National Emission Standards for Hazardous Air Pollutants (NESHAPS) Inspections Project Task. This
task was included in the basic grant award under grant no. X000679-93 on May 11, 1993. It was described as
task 4: "EPA Approved Asbestos Inspections (Idaho/Alaska) - $12,000." Additional NESHAPS inspection work
was included in subsequent WESTAR tasks under the grant. According to WESTAR's accounting records,
$231,359 has been spent for the NESHAPS inspection work through December 31, 1997.

The contract nature of the NESHAPS work is illustrated by the following facts. In a February 16, 1994
memorandum, the Region requested WESTAR perform "... work essential to operation of the asbestos program
in Alaska." The work plan from the Region stated the Region sometimes requires personal services on a
periodic or intermittent basis. The Region directed that WESTAR hire two specific individuals and the activities
performed by these individuals would be in accordance with directions and instructions provided by a Regional
employee.

WESTAR issued a subcontract to one of the individuals specified by the Region. (For reasons not obvious
during our audit at WESTAR, the other specified individual was not issued a subcontract by WESTAR). On
October 6, 1993, the Region prepared credentials for the individual authorizing her to perform asbestos
inspections in the states of Alaska, Idaho, Oregon and Washington. The credentials included the Region's
address but made no mention that the individual was a contract employee. The individual occupied space at the
State of Idaho offices and was supervised directly by the Region's staff. Regional personnel approved her time
sheets and leave requests. WESTAR asked the Region's staff for assistance in evaluating her performance. On
January 12, 1995, the Region responded: "As we have stated, we would consider this person for an award if she
worked for our organization." The Region recommended and WESTAR paid the individual $1,500 for a
performance award.
The WESTAR executive director at the time of the NESHAPS project tasks were performed did not consider
the program consistent with WESTAR's goals. He advised the Region that WESTAR would not be responsible
for the information provided from or the actions of the contract individual.

In the 1995 grant application work plan, WESTAR described the NESHAPS task in detail as follows:
"WESTAR will continue to assist EPA Region X and the States of Alaska and Idaho with their asbestos
programs by administering inspection contracts and continued administrative support for a full time inspector
for the State of Idaho."

The subcontract for the NESHAPS work clearly indicated this task was initiated for the benefit of the Region.
The subcontract specified the individual to be hired and that EPA would direct the efforts of the individual.
Documentation in WESTAR's procurement files relating to the subcontract include records prepared by the
Region in early 1993 showing issues of Regional necessity for the NESHAPS work, including state rejection of
NESHAPS delegation; the need for Regional supervision and control over inspections; and EPA hiring freezes
were driving forces in the Region's decision to have WESTAR subcontract for the NESHAPS work. The files
also indicate that the Region considered a direct contract for the work; but the idea was rejected. These factors,
coupled with the prior executive director's expressly questioning the benefit of the this effort, led us to conclude
the principal purpose was to acquire services for the direct benefit of the Region.

We were advised that the Lane Regional Air Pollution Authority (Springfield, Oregon) has also undertaken
NESHAPS work through a grant from the Region. Our comments regarding the use of grants to acquire such
services may apply to the Lane Regional Air Pollution Authority or other similar recipients.

Recommendation

We recommend that the Region assess any new tasks contemplated for inclusion under the grants to WESTAR
in accordance with the criteria (for determining the appropriateness of a grant or contract) included in EPA
Order 5700.1.

We also recommend any similar awards be re-evaluated for conformance with EPA Order 5700.1

The Region's Comments

The Region did not concur with the finding that the P4 or the NESHAPS activities should have been contracted.
The Region advised that the OIG erred in applying the criteria of EPA Order 5700.1 regarding the selection of
appropriate grant or contract agreements. The Region believes the grant was an appropriate instrument and that
the FGCAA does not require a benefit to WESTAR; rather it requires a public purpose and the absence of direct
benefit to EPA.

The Region also advised that the WESTAR would not accept a project for which WESTAR or its member states
did not receive substantial benefit and that assistance grants were awarded to WESTAR at the request of its
member states.

OIG Response

The Region's response states that the grants to WESTAR complied with EPA Order 5700.1 because the grants
served a public purpose and there was no direct benefit to the EPA. We disagree with the Region's position that
one of the tasks under the WESTAR grants did not directly benefit EPA. Documents we reviewed clearly
support our conclusion that certain of the questioned tasks directly benefitted EPA. We believe our discussion
of the Region's involvement in setting the scope of the NESHAP's inspection tasks, and its direct involvement
with WESTAR's subcontractor under these tasks makes a compelling case that the Region was the principal
beneficiary.
With regard to the Region's comment about WESTAR not accepting a project for which WESTAR or its
member state did not receive substantial benefit, we do not consider this point relevant to our basis for
concluding that some of the WESTAR tasks should have been contracted. Our point, with respect to these tasks,
is that EPA was the principal beneficiary. As such, the FGCAA criteria provides for the use of contract.

3. DIRECTLY INFLUENCING MATTERS RELATED TO WESTAR's SUBCONTRACT AWARD
AND ADMINISTRATION RESPONSIBILITIES

Regional officials involved themselves, on several occasions, in subcontract award and administration matters
that were the responsibility of WESTAR. Such involvement is not a good grants management practice as it may
create unnecessary financial and legal vulnerabilities for EPA.

To illustrate the Region's involvement, the following is provided:

! Under one subcontract, the Region directed the hiring of the individual. The Region, eventually, supervised
and evaluated the individual's performance.

! Under the Environmental Education subcontract, the Region apparently directly intervened in the
subcontractor's work activities. In an October 11, 1994 letter to the Region, the WESTAR executive director
wrote: "I have been advised by my contractor, that EPA has asked him not to hold a teacher workshop in
Tacoma, Washington as required by WESTAR's contract... I am concerned that EPA staff are authorizing
changes to the WESTAR contract without our knowledge... If you anticipate any other changes to the scope of
work, please advise."

! Under the Ross and Associates subcontract, the Region provided WESTAR the Request for Proposal for the
subcontract solicitation and provided EPA staff to evaluate subcontractor proposals. There were also clear
indications of the Regional project manager having direct contact with Ross and Associates during the
performance of the subcontract and continuing to this day despite advice to the Region of this condition several
months ago.

Recommendation

We recommend that the Region cease involvement of its management and staff in WESTAR's subcontract
award and administration responsibilities; and remind all project managers that directing or influencing a
grantee's contractors can be construed as supervision of the contractor and lead to legal liabilities such as torts.

The Region Comments

The Region concurs with the finding and will implement the recommendation especially in regard to defining
appropriate roles and responsibilities when communicating with grantees and especially when interacting with
contractors.

OIG Response

No response is necessary since the Region concurred with the recommendation.

4. ELIMINATING LIKE TASKS WITH OVERLAPPING PERIODS OF PERFORMANCE

One of WESTAR's accounting system weaknesses was its inability to account for costs by individual EPA
grant. While the total costs for all three grants could be determined, WESTAR's accounting system did not
identify costs to individual grants and project tasks within grants. This weakness precluded us from expressing
an opinion on the reasonableness, allocability and allowability of the amounts claimed under the grants by
WESTAR.

This weakness occurred, in part, because, the Region awarded more than one grant to WESTAR with like
project tasks and overlapping periods of performance. As a result, when WESTAR was working on a like
project task, it had to make an estimate as to which grant to charge.

The following shows the overlapping periods of performance:

                             Grant No.         Period of Performance
                            X000679-93      May 1, 1993 - January 31, 1998
                            X990602-01      September 25, 1996 - July 1, 2001
                            T990780-01      October 1, 1996 - August 1, 2001

To illustrate, the following like project tasks were performed under more than one grant: P4 (grant nos.
X000679-93 and X990602-01), Emission Inventory SIP (grant nos. X000679-93 and X990602-01) and the
Regional Training Center (grant nos. X000679-93 and T990780-01). According to WESTAR's accounting
records, like project task costs amounted to about 10 percent of all costs claimed under the three grants through
December 31, 1997.

Recommendation

We recommend that the Region require its personnel to review the project tasks under the two active EPA
grants and assign like project tasks to one of the two grants; thus, eliminating like tasks being provided for in
grants with overlapping periods of performance.

The Region Comments

The Region concurs with the finding and will review the grants as recommended.

OIG Response

No response is necessary since the Region concurred with the recommendation.

5. ELIMINATING PROVISIONS THAT PERMIT BOTH THE DIRECT AND INDIRECT
CHARGING OF ADMINISTRATIVE ACTIVITIES

The Region's efforts to provide WESTAR a method for reimbursement of its EPA grant administrative activities
were not consistent with good grants management. Although amendments to the three grants made some
changes in the provision for reimbursement of administrative activities, as a general observation: (i) two of the
three grants (X000679-93 and X990602-01) include provision for reimbursement of some administrative
activities as direct task grant costs; (ii) the same grants include a provision for reimbursement of some
"allocated direct administrative costs" as specific project direct tasks; (iii) the same grants include a provision
for reimbursement of some administrative activities through an indirect cost rate; and (iv) the third grant
(T990780-01) provides for no reimbursement of indirect costs.

These inconsistent and somewhat conflicting grant provisions, in our opinion, led to WESTAR claiming all
costs of administrative activities for the period June 1993 through December 1997 as direct task costs under
grant no. X000679-93. For the most part, WESTAR did not charge direct or indirect costs for administrative
activities to the other two EPA grants. Consequently, while the total costs of administrative activities claimed
by WESTAR under the three grants may be accurate, the costs of administrative activities are not properly
allocated amongst the grants.

To illustrate the inconsistences with respect to reimbursement of costs associated with the administrative
activities of the grants, the following is provided relating to grant no. X000679-93.

! The 1993 Work plan provided: "1. Administrative Tasks including the ongoing operation of the WESTAR
office, management of personnel issues; preparation and tracking of the WESTAR budget; financial
management of the Council, grant administration and reporting; management of WESTAR office equipment;
coordination among member States; supervision of a Administrative Assistant position; organization and
conduct of WESTAR business meetings.@

! The initial grant award in May 1993 included funding for the administrative tasks as requested in the work
plan as a direct grant charge and also included funding of indirect costs based upon an indirect cost rate. The
grant also included a condition providing: "If indirect costs are allowed, indirect costs to this agreement may not
exceed the approved rate indicated in the recipient's cost allocation plan."

! Grant amendments over the following three years continued to allow the costs of administrative tasks as a
direct grant charge and also included a provision for an indirect cost rate.

! The 1997 Work plan continued including the direct administrative task and also provided: "Salaries, benefits,
retirement contributions, payroll taxes and mass transit ridership incentive costs for the Director, Staff Associate
and 60% of the Technical Coordinator (formerly PM Coordinator) total $132,600. ...Additional personnel costs
for the Director and Staff Associate are spread out as allocated direct administrative costs borne by several
specific projects. Office rent, phone lease, supplies and miscellaneous costs for these three positions and basic
supplies, postage, printing, insurance, reception services for all staff total $59,400 ..."

With respect to indirect costs, the Work plan provided: "The previous 16.1% indirect costs will not be charged
against the project grants in 1997. There are however the direct administrative costs for individual projects
which will be tracked and charged against the project grants. The allocated time of the Director and Staff
Associate are part of these costs, as discussed above. Other direct administrative costs include telephone,
supplies, miscellaneous office support costs. This approach should serve to establish some average rate, which
can be agreed upon in future years."

In summary, the above work plans and grant conditions created an opportunity under a single grant to charge
administrative activities in three possible ways: (i) as a direct charge under the administrative task; (ii) as an
allocated administrative cost under project specific tasks; and (iii) through an indirect cost rate.

Recommendation

Since the period of performance for two of the three EPA grants extends until 2001, we recommend that the
Region require WESTAR to develop, for its accounting period beginning January 1, 1999, an indirect cost rate
in accordance with the provisions of OMB Circular a-122 for the reimbursement of all administrative cost
related to the grants; and discontinue the practice of charging administrative activities directly to EPA grants. In
this regard, costs budgeted for administrative activities under grant no. X990602-01 should be reclassified to the
indirect cost budget category to provide sufficient funds for reimbursement of the indirect costs.

The Region Comments

The Region concurs with the finding and will implement the recommendation.

OIG Response
No response is necessary since the Region concurred with the recommendation.

ACTION REQUIRED

In accordance with EPA Order 2750, the Action Official is required to provide this office with a copy of the
determination on the conclusions and recommendations in this report within six months.

Please refer to the audit report number on all related correspondence. We will be pleased to provide additional
accounting counsel and audit services which may be required in connection with this report and the
implementation of our recommendations. If you have any questions concerning this report, please contact
Robert Adachi at (415) 744-2445.
